<html>
<title> - MOTOR VEHICLE SAFETY PROVISIONS IN HOUSE AND SENATE HIGHWAY BILLS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
           MOTOR VEHICLE SAFETY PROVISIONS IN HOUSE 

                     AND SENATE HIGHWAY BILLS
=======================================================================



                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2012

                               __________

                           Serial No. 112-130



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
77-607                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MARY BONO MACK, California
                                 Chairman
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               CHARLES A. GONZALEZ, Texas
CHARLES F. BASS, New Hampshire       JIM MATHESON, Utah
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
LEONARD LANCE, New Jersey            EDOLPHUS TOWNS, New York
BILL CASSIDY, Louisiana              BOBBY L. RUSH, Illinois
BRETT GUTHRIE, Kentucky              JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................     8
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, prepared statement..........................     8

                               Witnesses

Hon. John Lewis, a Representative in Congress from the State of 
  Georgia........................................................     9
    Prepared statement...........................................    12
David L. Strickland, Administrator, National Highway 
  Transportation Safety Administration...........................    14
    Prepared statement \1\
    Answers to submitted questions...............................   163
Mitch Bainwol, President and Chief Executive Officer, Alliance of 
  Automobile Manufacturers.......................................    26
    Prepared statement...........................................    29
    Answers to submitted questions...............................   181
Michael J. Stanton, President and Chief Executive Officer, 
  Association of Global Automakers...............................    38
    Prepared statement...........................................    39
    Answers to submitted questions...............................   188
Peter J. Pantuso, President and Chief Executive Officer, American 
  Bus Association................................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   193
Victor S. Parra President and Chief Executive Officer, United 
  Motorcoach Association.........................................    63
    Prepared statement...........................................    65
    Answers to submitted questions...............................   201
Joan Claybrook, Former Administrator, National Highway 
  Transportation Safety Administration, Consumer Co-Chair, 
  Advocates for Highway and Auto Safety..........................    72
    Prepared statement...........................................    74
    Answers to submitted questions...............................   210
Ami V. Gadhia, Senior Policy Counsel, Consumers Union............    99
    Prepared statement...........................................   101
    Answers to submitted questions...............................   222

                           Submitted Material

Statement, dated Marsh 22, 2012, of Hon. Bill Shuster, a 
  Representative in Congress from the Commonwealth of 
  Pennsylvania, submitted by Mrs. Blackburn......................   115

----------
\1\ Mr. Strickland did not submit a statement for the record.
Letter, dated March 20, 2012, from Charles A. Cannon, President 
  and Chief Executive Officer, Rubber Manufacturers Association, 
  to Mrs. Bono Mack, submitted by Mrs. Blackburn.................   117
Letter, dated March 21, 2012, from Ann Wilson, Senior Vice 
  President, Government Affairs, Motor & Equipment Manufacturers 
  Association, to Mrs. Bono Mack and Mr. Butterfield, submitted 
  by Mrs. Blackburn..............................................   119
Letter, dated March 21, 2012, from Terry Emerson, Director of 
  Quality Assurance, Dorel Juvenile Group, to Mrs. Bono Mack and 
  Mr. Butterfield, submitted by Mrs. Blackburn...................   123
Letter, dated March 21, 2012, from Jared Stancil, Vice President, 
  Anchor Trailways & Tours, to Mrs. Blackburn, submitted by Mrs. 
  Blackburn......................................................   126
Statement, dated March 22, 2012, of the National Automobile 
  Dealers Association, submitted by Mrs. Blackburn...............   128
Statement, dated March 22, 2012, of Todd Spencer, Executive Vice 
  President, Owner-Operator Independent Drivers Association, 
  submitted by Mrs. Blackburn....................................   156


   MOTOR VEHICLE SAFETY PROVISIONS IN HOUSE AND SENATE HIGHWAY BILLS

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Marcia 
Blackburn (vice chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Stearns, 
Harper, Lance, Guthrie, Upton (ex officio), Butterfield, 
Schakowsky, and Waxman (ex officio).
    Staff present: Kirby Howard, Legislative Clerk; Brian 
McCullough, Senior Professional Staff Member, Commerce, 
Manufacturing, and Trade; Gib Mullan, Chief Counsel, Commerce, 
Manufacturing, and Trade; Andrew Powaleny, Deputy Press 
Secretary; Shannon Weinberg, Counsel, Commerce, Manufacturing, 
and Trade; Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; and Will Wallace, Democratic Policy 
Analyst.
    Mrs. Blackburn. The subcommittee will come to order. Good 
morning, and welcome to everyone. Chairman Bono Mack has 
personal business in California today, and it is going to 
prevent her from joining us, and we look forward to her quick 
return next week. So I would like to begin today, as I said, by 
welcoming each of you and by yielding myself time for an 
opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    I do want to thank our expert witnesses for joining us as 
we examine vehicle safety provisions in the House and the 
Senate highway bills. We are honored to have our esteemed 
colleague, Congressman Lewis, with us for our first panel, 
Administrator Strickland, we welcome you for our second panel, 
and several stakeholders whose industries and interests are 
central to today's hearing.
    The American people believe the auto industry can grow and 
prosper without diminishing our efforts to make our highways 
safer. These aren't mutually exclusive goals, and they don't 
need to be if we have the right approach. The history of the 
last 2 decades of highway safety demonstrates that industry-
developed technology, combined with Federal oversight and 
enforcement by NHTSA has continually reduced the number of 
fatalities to near-record lows as collected vehicle-travel 
rates continue to increase.
    Transportation is fundamental to our everyday lives, and 
highway safety deserves our special attention. The safety of 
our roads is important, and it is in everyone's best interest. 
Interstate commerce, our economy, and families rely on the 
ability to travel safely in order to conduct business, earn a 
living, and carry out their daily activities. With safety 
always in the forefront of our minds, we ought to ensure our 
motor vehicle safety policies are framed in a way that ensures 
economic flexibility and efficiency for business, as well as 
regulatory caution and reduced uncertainty for the auto 
manufacturing industry.
    Regarding flexibility and efficiency, we know that America 
is a haven for innovators and that safety is something many 
consumers look for when purchasing a vehicle or traveling with 
a commercial bus or motorcoach company. Accidents on our 
roadways are not only an immediate danger to the passengers 
involved but also a major setback for industry, potentially 
harming a small business's productivity and safety reputation.
    It is in the industry's best interest to incorporate safety 
features into their vehicles and business models, and they have 
the expertise to understand that safety features work, how they 
work, how they interact, and how quickly they can be 
implemented. We need to consider the best ways to incentivize 
safety, to be flexible and respectful of the processes that 
exist, to better understand what works best for safety for our 
economy and the transportation systems.
    Regarding caution and certainty, we must exercise prudence 
before assuming the Federal Government knows best. Simply 
placing more mandates and regulations on industry, especially 
without proven safety benefits, will not help us reach any of 
our shared goals for safe travel. Let's avoid regulatory 
whiplash by narrowly targeting our efforts on true harms, 
determining proven ways to make the biggest impact and reducing 
crashes on our roads needs to take precedence.
    At the same time, we need to understand what tools and 
resources can be offered to improve transportation safety 
without growing the size of the Federal Government and place 
additional costs on consumers.
    Businesses need certainty, and employees deserve to know 
their jobs aren't at risk because of ill-conceived Federal 
regulations.
    I look forward to hearing from each of our witnesses today 
about their views on the state of safety within their 
respective industries, how safety might be improved, and 
whether there is a role for the Federal Government to help 
those efforts. With the recent passage of the Senate 
Transportation Bill, I am also interested to learn how 
provisions in the Commerce Title of MAP-21 will affect safety 
and any concerns our witnesses may have with the legislation as 
proposed.
    [The prepared statement of Mrs. Blackburn follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.001
    
    [GRAPHIC] [TIFF OMITTED] 77607.002
    
    Mrs. Blackburn. Thank you for your time, and I would like 
to recognize the ranking member, Mr. Butterfield, for his 
opening statement.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Let me thank you, Madam Chairman. Let me 
thank the chairman of the committee--subcommittee, who is not 
here today, but thank her for her leadership on the 
subcommittee and thank her for her friendship.
    Let me also thank Congressman John Lewis for coming today, 
and John Lewis is no stranger to any of us who serve in this 
Congress, and I want to thank him and welcome him to this 
subcommittee as well as the Administrator and other witnesses 
who are waiting to testify this morning.
    We have an 11:00 vote, I am told, and so I better try to 
expedite my statement and make sure that all of our witnesses 
can be heard.
    This committee has a long history of working together to 
advance vehicle safety, and I am hopeful that we can continue 
to be a part of that history today. Deaths from vehicle 
incidents have declined significantly and are at their lowest 
point in 60 years. Those who are here today as witnesses should 
be proud of their role in making that happen.
    However, far too many Americans still lose loved ones when 
they are drivers or passengers of an automobile. It is our job 
today, in my opinion, to ensure that we continue to make 
progress in this area. Today we will discuss the Senate-passed 
Surface Transportation Bill, as well as the version of the 
Surface Transportation Bill reported to the House Floor. 
Included in these measures are a number of provisions related 
to passenger and motorcoach safety that fall under the 
jurisdiction of the Energy and Commerce Committee.
    Arising gas prices and the economic recession will force 
some people away from traveling in cars and instead some opt to 
travel by motorcoach, and these large inter-city buses 
transport large numbers of passengers over long distances with 
a less expensive price tag, but those buses often lack key 
safety features like seatbelts, use of advanced glazing 
technology that makes windows stronger, and therefore, less 
likely to break and eject passengers in the event of a crash, 
and strong roofs to protect passengers from being crushed in a 
rollover. And these safety improvements can help keep 
passengers safer and ultimately save lives.
    I am very pleased, again, that Congressman John Lewis from 
the great State of Georgia is here today to speak about his 
bill, H.R. 837, the Motorcoach Enhanced Safety Act of 2011, 
which was included as a part of the Senate Highway Bill. I 
strongly support Mr. Lewis's efforts and hope that Motorcoach 
Enhanced Safety Act will become law either as a stand-alone 
bill or part of a larger legislative package.
    I recently authored an amendment to H.R. 7, which I am 
hopeful can be supported on a bipartisan basis, dealing with 
odometer fraud at online auctions, and I am pleased that the 
Senate bill included stiffer penalties for people who violate 
Federal odometer reporting requirements. I hope that it will 
serve as a deterrent to those who defraud unsuspecting 
consumers to the tune of over a billion dollars annually 
according to a 2002 study.
    There are roughly 260 million motor vehicles on the road in 
the U.S. today, and the safety and security of passengers 
traveling in those vehicles on American roads should be 
paramount to policymakers, regulators, and the auto industry 
alike. It is clear that auto manufacturers agree. They have 
demonstrated their commitment to safety by continuously 
innovating and creating new technological features such as 
anti-lock brakes and stability controls.
    I know we can work together to get those excellent safety 
features on all vehicles any time and manner. Congresswoman 
Blackburn, I hope we can ultimately pass a long-term highway 
bill with strong safety provisions for passenger vehicles as 
well as motorcoaches so that the American roads are safer for 
all of us.
    I appreciate the witnesses being here today, and I look 
forward to their testimony.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time I recognize our full committee chairman, Mr. 
Upton, for 5 minutes to give his opening statement.
    Mr. Upton. Well, thank you, Madam Chair, and knowing that 
the votes have been moved up I am going to ask to insert my 
statement into the record to expedite the process.
    So thank you very much for your leadership.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.003
    
    Mrs. Blackburn. Thank you, and at this time I recognize the 
ranking member of the full committee, Mr. Waxman, for his 
opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Madam Chair and Ranking Member 
Butterfield, for holding this hearing.
    In the last Congress our committee examined massive Toyota 
recalls and the government's slow response to sudden unintended 
acceleration. We examined the reforms needed at NHTSA. The 
committee passed the Motor Vehicle Safety Act, which I 
introduced, to make sure NHTSA has the expertise to keep pace 
with emerging technologies and stronger enforcement authority 
to ensure timely and effective recalls.
    Many of the provisions of this bill are included in the 
bipartisan Senate Transportation Bill, and I would like to 
thank Chairmen Rockefeller and Pryor, the Senate sponsors of 
the provisions for their leadership in moving this legislation 
forward.
    The Senate bill includes provisions to improve electronics 
expertise at NHTSA. It also mandates new safety standards to 
reduce the risk of sudden acceleration as well as standards for 
electronics systems performance. The bill includes measures to 
improve accountability with a higher cap on civil penalties and 
a requirement that auto safety officials certify the accuracy 
of information given to the agency. The bill has improvements 
in the area of transparency, it would give consumers easier 
access to recall information, safety bulletins prepared by 
manufacturers, and the early warning data companies submit to 
help NHTSA identify defect trends.
    All of these provisions are similar to ones we considered 
in this committee last Congress, and they are all important 
safety measures.
    In addition, the Senate Reauthorization Bill requires 
important new standards for child safety seats and booster 
seats in particular. It has mandates for strong motorcoach 
safety standards that are desperately needed but have 
languished at NHTSA for years.
    I would like to thank my colleague, Congressman John Lewis, 
for his steadfast efforts to press for action on this issue.
    Let me close by thanking Administrator Strickland for his 
testimony today. Your leadership along with Secretary LaHood 
has reenergized the agency. While we take great pride in the 
sustained decline in vehicle fatalities, we must continue to 
look for opportunities to save more lives.
    Mr. Waxman. I would like to now yield the balance of my 
time to my colleague, Ms. Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank the gentleman for yielding.
    I want to reiterate that the Senate has passed the 
Transportation Bill that has a number of key safety provisions 
that will keep consumers safe, including children. Mr. Waxman 
named some of them. I also wanted to highlight a study and 
potentially a rulemaking system that could warn drivers that a 
child remains in the backseat as well as the child safety seat 
requirements.
    Unfortunately, the House Transportation Bill as drafted 
includes few safety measures and would actually repel Safety 
Belt Performance Grants, the Older Driver Safety Program, and 
Child Safety and Child Booster Seat Incentive Grants. I hope 
this hearing today will highlight the importance of the 
provisions of the Senate Bill and the other party will 
reconsider their approach here in the House.
    Auto safety should be a bipartisan issue. Just, well, I 
shouldn't say just, 4 years ago I worked closely with 
Representative Peter King to enact the Cameron Gulbransen Kids 
Transportation Safety Act. That bill mandated a rear visibility 
rule, and we are anxiously awaiting finalization of that this 
year, and of course, it will save lives.
    The Senate bill with its many safety initiatives passed by 
an overwhelming vote, as has been mentioned, 74 to 22, and 
there is no reason we can't move auto safety forward in a 
similar way here in the House. I hope we do it immediately, and 
I yield back to the--to Mr. Waxman.
    Mrs. Blackburn. I thank the gentleman for yielding back.
    We are going to have three panels today. As always, each 
witness has prepared an opening statement. The full statement 
will be in the record. You will have 5 minutes for summarizing 
your remarks.
    Our first panel, of course, is our colleague, Congressman 
John Lewis, and we are delighted to have you here. You are 
recognized for 5 minutes, and as always, punch the button to 
turn on the mic, watch the timer. When it turns yellow, you are 
going to have 1 minute for wrap-up, and we are delighted that 
you are here. You may begin.

STATEMENT OF HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF GEORGIA

    Mr. Lewis. Well, thank you very much, Chairwoman Blackburn, 
Ranking Member Butterfield, and members of the committee. Thank 
you for the opportunity to testify today.
    On March 2, 2007, an accident occurred in my Congressional 
district and made headlines across the country. A charter bus 
carrying the Bluffton University baseball team careened off a 
closed exit and crashed onto highway I-75 in downtown Atlanta, 
Georgia.
    It was devastating. Seven of the 35 passengers lost their 
lives on that terrible day. A university, a community, parents, 
teachers, teammates, and friends mourned. News outlets across 
the country asked, why did this happen? How can we prevent this 
from occurring again?
    A few days later, my office received a phone call from Dr. 
Jeffrey Salomone, one of the leading surgeons who treated the 
players. He knew the Grady doctors at the Grady hospital, one 
of the best trauma centers in America. These Grady doctors 
could have saved more lives if only the team had not been 
thrown out of their seats and ejected from the bus. Dr. 
Salomone explained his painful work trying to save lives and do 
the patchwork. He felt strongly that much of it could have been 
prevented if only they had been wearing seatbelts.
    He stated that countless lives could have been saved had 
Congress acted years ago. He was furious at our inaction. He 
knew what his job was and demanded that we do ours.
    As a Nation we have learned time and time again that 
motorcoach accidents are rare, but when they do occur, the 
consequences are severe. The National Transportation Safety 
Board recommended time and time again that Congress enact 
stronger comprehensive motorcoach bus safety standards. Since 
that terrible dark day in downtown Atlanta, there have been 120 
accidents across the country. One hundred and twenty. Some are 
small and occur on their local news, while others like the 
tragedy in Sherman, Texas, the Bronx in New York, East 
Brunswick, New Jersey, High Point, North Carolina, and most 
recent in Clinton, Montana, send a deathly reminder that 
Congress needs to act, and we need to act now.
    For me, buses are very important. They are personal. Madam 
Chair, I traveled for 6 years from rural Alabama, through 
Montgomery, through Birmingham, to Nashville, Tennessee, from 
1957, to '63, on my way to school. I grew up taking motorcoach 
buses, again, in Alabama, in Georgia, in Tennessee, in 
Virginia, and in the Carolinas. Dr. Martin Luther King Jr. sent 
me a bus ticket to meet him for the first time in 1958, when I 
was 18, and I later joined thousands of Freedom Riders to 
desegregate interstate commerce. I know all too well that buses 
are the lifeline of our Nation. It is a major means of 
transportation for all Americans; sporting teams, students, and 
tourists in every corner of our country. Is it so wrong to push 
for them to be safe? It is the right thing to do. It is the 
necessary thing to do.
    For 5 years we have had a bipartisan effort on this issue. 
Senators on both sides of the aisle have tried repeatedly to 
push this bill forward. Every time an accident occurs in their 
home States, their citizens, like mine, demand action, and we 
must act.
    I commend the Senate for the inclusion of the Motorcoach 
Enhanced Safety Act in the Surface Transportation 
Reauthorization Bill. Recently my good friend and colleague, 
Congressman Ted Poe from Texas, joined me in offering an 
amendment to H.R. 7 to ensure that the House bill included 
equally high motorcoach standards.
    This is one of those issues where we just need to put 
partisan politics aside and get it done. The American people 
are demanding that we act. The motorcoach industry has had 
decades to make their fleets safe and safer, and time is up. 
Congress needs to act and act now, not tomorrow or next year 
but now. I urge each of you to sit back and ask yourself why 
you can get on a bus and have access to wireless service and 
outlets but not a seatbelt? It doesn't make sense. Your window 
is not crash-proof, the roof is not crush-resistant. Trust me. 
You do not want to be on the receiving end of a phone call from 
a doctor, a parent, a survivor, a child, a patient, a loved one 
in a preventable motorcoach accident.
    I hope and pray that any bill that this committee puts on 
the floor will send an unmistakable message that the United 
States House of Representatives, the body of the people, speaks 
in a clear voice for safety.
    Again, I thank you for the opportunity to testify this 
morning. Thank you, again.
    [The prepared statement of Mr. Lewis follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.004
    
    [GRAPHIC] [TIFF OMITTED] 77607.005
    
    Mrs. Blackburn. Thank you, Mr. Lewis. We appreciate your 
testimony.
    I have no questions that I am going to ask, but at this 
time I am going to yield to Mr. Butterfield, who does have one 
question he would like to ask for the record.
    Mr. Butterfield. Thank you, and thank you, Mr. Lewis, for 
your very powerful statement. I think it speaks volumes and 
clearly explains the issue that we have to deal with.
    But as you acknowledge, the Senate bill is somewhat 
different from the way you would like to see this handled. The 
Senate does not require a retrofitting of motorcoaches, and 
your bill does.
    Would you be happy with the Senate version, or do you want 
to stay with the idea of requiring retrofitting?
    Mr. Lewis. Well, no, I would love to see what it is in our 
bill prevail, but I am prepared to accept a compromise. I want 
action.
    Mr. Butterfield. All right. All right. That is my question. 
Straight to the point. Thank you.
    I yield back.
    Mrs. Blackburn. Thank the gentleman for yielding back.
    Is there anyone further seeking recognition for questions? 
Mr. Upton? Mr. Harper? Mr. Lance? OK.
    We thank you, sir, for your time.
    Mr. Lewis. Thank you, Madam Chair and members of the 
committee. Thank you very much.
    Mrs. Blackburn. Thank you, sir.
    Mr. Strickland. For our second panel we have the Honorable 
David Strickland, Administrator of the National Highway 
Safety--Transportation Safety Administration, NHTSA as we love 
to call it. Good morning. We are pleased that you are here. You 
are recognized for 5 minutes, and as always, punch that button 
to get the mic on so that we can hear you, and watch the timer. 
When it moves to yellow, you will have 1 minute left for wrap-
up, and at this point you may begin.

   STATEMENT OF DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL 
          HIGHWAY TRANSPORTATION SAFETY ADMINISTRATION

    Mr. Strickland. Thank you very much, Madam Chairman, 
Ranking Member Butterfield, and members of the committee. It is 
always good to be back before Energy and Commerce.
    This is a fantastic opportunity for the men and women of 
the National Highway Traffic Safety Administration to have the 
opportunity to discuss the Motor Vehicle Safety Provisions in 
the Surface Transportation Reauthorization.
    I can definitely speak with some experience here in terms 
of the amount of effort it takes to get one of these bills 
done. I had the pleasure and honor to serve as a staffer on the 
Senate Commerce Committee during the work on SAFETEA-LU, so I 
definitely appreciate the task before you and happy to be of 
assistance along with my staff at any time that you ask.
    As you know, last year the Nation continued a long-term 
downward trend in traffic-related fatalities. In 2010, there 
were 32,885 motor vehicle-related fatalities, a 24 percent 
reduction compared to 2005, and the lowest level since 1949. 
For all of us at the agency this trend is encouraging, but 
almost 33,000 people losing their lives in motor vehicle 
crashes is a toll that is way too heavy.
    The National Highway Traffic Safety Administration is 
working across multiple fronts to save lives and reduce 
traffic-related injuries. We continue to promote responsible 
driver behavior to reduce alcohol-impaired driving and to 
encourage the use of seatbelts. We are also working vigorously 
to meet the new challenge of distracted driving.
    At the same time we are exploring new emerging technologies 
that have the potential to prevent crashes from happening in 
the first place, which, frankly, is the moon shot for dealing 
with all of our fatalities on the roads.
    As I discuss more fully in my written testimony, the Senate 
has include a number of provisions that would permit the agency 
to ensure motor vehicle and equipment safety on a broader basis 
than we can today, including the authority to address safety 
hazards caused by some imported motor vehicle equipment, 
greater consumer protection against safety defects or non-
compliance from manufacturers who file for bankruptcy, and 
increases in the total amount of civil penalties that NHTSA can 
seek for safety-related violations.
    To further strengthen our safety mission, we seek 
additional authority in several areas including the authority 
to require action by used car dealers or rental car companies 
with regard to recalled vehicles, clarification of authority 
over safety-related aspects of distracting portable electronic 
devices in vehicles, and the direct appellant review of recall 
orders to ensure that manufacturers may challenge orders while 
avoiding lengthy district court trials during which there is no 
recall in effect to protect consumers.
    We at the agency believe that these straightforward 
clarifications of authority would enable us to address timely 
safety concerns on our roadways. For example, the authority to 
notify consumers of recall issues before they purchase a used 
vehicle or rent a car could easily protect consumers and 
provide real world safety benefits.
    Here is a second example. The agency recently proposed 
visual manual driver distraction guidelines. These guidelines 
are designed for vehicle manufacturers to consider as they 
introduce electronic devices into these vehicles. However, the 
agency needs clarification of its authority concerning the 
safety aspects of external devices that can also distract 
drivers inside the vehicle. Here, again, clarification of the 
agency's authority to do so is an important element in 
furthering the safety of those devices.
    Finally, the Senate bill includes numerous rulemaking 
provisions with some very short deadlines. I appreciate the 
inclusion of a provision that would allow an extension of a 
timeframe when necessary with an explanation to the committees 
of jurisdiction. This will permit the agency to continue to 
prioritize its regulatory work based on available resources and 
the judgment of the likely safety benefits and costs.
    Thank you, again, Madam Chairman, for this opportunity to 
testify before the committee today. I am happy to answer any 
questions that all of you may have.
    Mrs. Blackburn. Thank you, sir. We appreciate your time, 
and I will tell you what, record pace getting through that 
opening statement, and we will try to reciprocate with our 
questions.
    I will yield myself 5 minutes to begin the questioning with 
you.
    I want to start, something was mentioned in opening 
statements about the Safety Bill Grants. I want to just seek 
some clarification. Are you not looking to repeal those grants 
and then reprogram that money for other uses?
    Mr. Strickland. That is correct. I will be happy to answer 
the question more fully for the record, but right now it is a 
Section 406 grant. It is under SAFETEA-LU, which is a Primary 
Belt Grant, which gives a very significant payment for States 
that have not passed the Primary Belt Law for the first time, 
and it pulls that incentive.
    Therefore, the reason we are asking to reprogram these 
funds is that, frankly, the States that we feel that could be 
pulled in by this incentive have taken action, and at this 
point right now we are having fairly significant resources that 
are not being expended, and we feel that we could repurpose 
these particular funds in a way that can further increase belt 
use but not tying up the resources for some States that may not 
decide to go in that direction of primary belts.
    Mrs. Blackburn. OK, and that is action you already have in 
process?
    Mr. Strickland. Yes. Actually, we made technical assistance 
to the Senate in regards to this issue, and that is what they 
did.
    Mrs. Blackburn. Excellent. OK. I want to ask you about Cass 
Sunstein's comments describing the guidance that is being given 
to the Federal agencies on the cumulative effects of the 
regulations on industries, and how is NHTSA planning on 
complying with that new guidance?
    Mr. Strickland. Thank you for the question, Madam Chairman. 
This is something that frankly internally that we have always 
done in coordination with all of our rules. We always have to 
take into consideration the cumulative affect of the work that 
we are doing. It is our goal to make sure that the rules that 
we promulgate maximize safety benefits while taking into 
account the possible costs. It does not serve to anyone's 
advantage to have redundant or unnecessary rules that do not 
apply or improve the prism of safety.
    So frankly, you know, I think Administrator Sunstein's 
guidance is effectively what the agencies are already working 
under. That was a clarification of the particular guidance and 
intent, but our, in terms of our rulemaking operation, we 
already sort of take those elements into----
    Mrs. Blackburn. So you have an active cost benefit 
analysis----
    Mr. Strickland. Absolutely.
    Mrs. Blackburn [continuing]. That is in place. Would that 
apply to the last fall's CAFE proposal and pending review 
visibility rule, the visual manual guidelines for automakers, 
potential rulemakings on advanced vehicle communications such 
as vehicle to vehicle and vehicle to infrastructure?
    Mr. Strickland. For CAFE, yes, it applies.
    Mrs. Blackburn. OK.
    Mr. Strickland. For rear visibility, it applies. In regards 
to the visual manual guidelines, they are guidelines. They are 
not a rule, so, therefore, we did not have to take cause into 
effect.
    Mrs. Blackburn. OK. All right, and what about the vehicle 
communications?
    Mr. Strickland. That will be--right now we are making the 
agency decision as to the vehicle to vehicle, you know, 
systems. We are making the agency decision by the end of this 
year, which may then enter into rulemaking phase. When it does, 
prospectively if the agency decides to move forward with the 
rule in regards to the vehicle, the vehicle communications, 
then, of course, the cost benefit analysis guidance would then 
fall into play in terms of our issuance of that rule.
    Mrs. Blackburn. OK. We have got a fragile recovery in the 
auto industry, if you will, and so as you look at rules and 
guidelines and mandates and requirements on the car makers, 
what are you doing there for make certain that you don't 
overreach and harm a recovery, that everything you are doing 
is--you are going to look at that cost benefit analysis?
    Mr. Strickland. Madam Chairman, as you already referred, 
the cost benefit analysis definitely asks us to weigh the cost 
and the benefits of our rules. Thinking about numbers and 
factors, I mean, frankly, in some situations depending on the 
rules thousands of variables or factors in terms of costs and 
benefit and including how it may impact potential consumers and 
the industry itself.
    So in terms of our evaluations, that has been our north 
star in terms of our rulemaking effort. So in regards to CAFE 
and regards to rear visibility, we have always taken very hard 
looks, the two most recent examples of how we look at costs and 
benefits and how they may impact the fleet.
    And so absolutely we take that into account very strongly 
every time we go into a rulemaking process.
    Mrs. Blackburn. You noted in your testimony that you all 
are already working on many of the items that are in the Senate 
bill.
    Mr. Strickland. That is correct.
    Mrs. Blackburn. And of those mandates that are there, the 
standards that they are looking to mandate, how many are you 
already working on?
    Mr. Strickland. Well, there are several. We will get back 
to you on the record specifically for the----
    Mrs. Blackburn. That would be helpful.
    Mr. Strickland. But we have, we also definitely referred to 
our Research and Rulemaking Priority Plan, which we have posted 
on NHTSA.gov, which goes through the timeframes and the process 
of where we are in all of our work, but there is a significant 
amount of work in motorcoach and other places where we have 
undertaken work, and we are actually close to completion on 
some of those elements.
    Mrs. Blackburn. Thank you. My time has expired.
    I recognize Mr. Butterfield.
    Mr. Butterfield. Thank you. In 2009, NHTSA issued a 
Motorcoach Safety Action Plan. I am sure you are familiar with 
that, building off of NTSB recommendations, the plans set 
rulemaking priorities for crash avoidance, seatbelts, fire 
safety, emergency egress, and ejection mitigation. A timeline 
for addressing these priorities was outlined in the agency's 
2011, 2013, rulemaking and research priority plan. In the past 
NHTSA has often not met its rulemaking timelines. That is why 
Congress has felt the need to step in and impose deadlines
    Regardless of whether the Senate bill becomes law, how do 
you intend to stick to your deadlines?
    Mr. Strickland. Ranking Member, absolutely I will have to 
say that all of these safety issues are so important, and the 
timeliness of them and the promulgation of these issues is the 
highest priority of the Secretary and myself. We always have to 
recognize that this work has to be based on sound science, 
sound engineering principles, and frankly, there is a notion of 
sometimes the chaos theory and the unknown in terms of the 
work, in terms of how we promulgate these rules.
    However, we have very close to completion on a number of 
these rules such as the mandatory seatbelt rule for 
motorcoaches. We are on the edge of working on and possibly 
promulgating a proposal for electronic stability control in 
heavy-duty vehicles, for example, for roof crush structures and 
vehicle stringency, for motorcoaches. We are very close to 
working on that as well.
    So I appreciate the fact that we are well overdue. It is 
the Secretary's commitment and my commitment that we hold to 
our deadlines and that we issue these rules in a timely manner.
    Mr. Butterfield. I notice a proposed rulemaking on the 
seatbelt standard was released in August of 2010, and the 
comment period closed about 18 months ago. What is the status 
of this rulemaking?
    Mr. Strickland. Right now it is over at the Office of 
Management and Budget. We hope that this rule will be issued 
fairly soon in 2012.
    Mr. Butterfield. Let me ask you about school buses. I just 
learned recently that school buses don't fit within the 
definition of motorcoach. Is that correct?
    Mr. Strickland. That is--I guess the question is motorcoach 
has an over the road, but for school buses there are 
definitional differences.
    Mr. Butterfield. And is there any type of conversation 
ongoing about whether or not these safety features should be 
included on school buses? And the reason I ask that and it has 
been so long ago, and I don't expect anyone to remember, but in 
my Congressional district I guess 25 or 30 years ago, there was 
an awful, awful, awful school bus accident in which all of the 
children on the bus were actually killed, and the conversation 
back then and remains in that small community, you know, about 
seatbelts on school buses.
    Mr. Strickland. Yes. School buses, sir, we had actually 
taken action on in terms that we have permitted the States may 
go forward, and they may individually decide to mandate belts 
on buses within their particular States or jurisdiction. There 
is not a national rule mandating belts on school buses, or it 
is not part of the rulemaking undertaking for motorcoaches.
    The reason is this. The safest form of transportation for 
children is a school bus period. There are probably a handful 
of deaths a year, maybe I think seven or eight fatalities a 
year because of school bus crashes, and most of those are for 
children that are struck outside of the bus. In terms of the 
actual bus crashes I think the average would be one to two 
children per year versus the hundreds of thousands of miles 
that are traveled and the thousands and thousands of children 
that are carried by school buses.
    Adding the belts on the buses may actually decrease the 
number of buses available for children to ride, which would 
actually increase the number of fatalities of children because 
they will be forced to taking passenger cars. There is the 
structure of compartmentalization in buses, protects children, 
and frankly, the cost and the benefits of having the belts on 
buses the agency feels that is not the appropriate measure at 
this time. We feel that adding belts on buses decreases the 
number of buses and thereby, would increase the risk of 
children driving in passenger cars.
    Mr. Butterfield. All right. In the interest of time I think 
I am going to yield back. I had one more, but I am going to 
yield back.
    Mrs. Blackburn. Thank you, Mr. Butterfield. Would you like 
to submit that one for the record just to get a response in 
writing? OK. We will do so accordingly.
    At this time I recognize Mr. Harper for 5 minutes.
    Mr. Harper. Thank you, Madam Chair.
    Mr. Strickland, thank you for being here and taking this 
time. I am sure you were looking at fun things to do, and this 
was at the top of your list, but we appreciate your time.
    You know, one of the big safety concerns seems to be 
texting while driving. That is the complaint I hear more than 
anything else back home, and it is something that we certainly 
tell our friends and staff don't do that.
    Mr. Strickland. We appreciate that.
    Mr. Harper. It is certainly something. Coming in from the 
airport Monday we almost observed a major wreck on the 
interstate coming in from Reagan National where there was a 
work truck stopped, and it was clear they were not paying 
attention, and it was within a foot or 2 of plowing into the 
back of a stopped work truck. So, you know, it is a great 
concern every day for us on how we are going to address those 
issues.
    One of the questions, I know there is some talk about maybe 
blocking cell phone usage of drivers. Is that something that 
you are looking at, any aspect of that, or just texting?
    Mr. Strickland. Well, thank you for the question, Mr. 
Harper. The Secretary's leadership over the past 3 years on 
distractions has really sort of given, frankly, the entire 
country leadership and guidance on this emerging threat. From 
his work on the two distraction summits and frankly, his 
direction to all the mobile administrations, including mine, 
things that we could do to address distraction risks in our 
particular motor vehicles.
    Clearly, the usage of devices in motor vehicles poses a 
very significant threat. We lost over 3,000 people in 2010, to 
distraction-related crashes. In terms of your question 
regarding technologies that may be used to intervene, we are 
looking at several possible technology pipelines as 
possibilities for further research, but right now we are really 
focused on our distraction plan, which the first element is the 
visual, manual guidelines that are right now in the proposal 
and comment period, and that closes on April 24. And then our 
next work will begin then on nomadic devices and then of those 
commands or cognitive impact of using these devices.
    Mr. Harper. Is there any plan or do you support--I know 
some localities have cell phone bans----
    Mr. Strickland. Uh-huh.
    Mr. Harper [continuing]. You know, and driving. Is that 
something that you are looking at technology wise to restrict 
driver usage of cell phones?
    Mr. Strickland. At this point right now our review of the 
technologies we don't see a viable pathway technologically for 
cell phone blocking because the thing called spillover, you can 
basically--you have, say, a jamming signal in a vehicle. It 
doesn't stay in one vehicle, it spreads to other vehicles. 
There is a similar issue that is corollary but not necessarily 
direct connected where I know in the penal system that they are 
looking at possibly having cell phone jammers to keep prisoners 
from using cell phones, and they have the very same issues. It 
spills out and over well outside the borders of the jail and 
impacts actual consumers.
    So in terms of that particular issue we don't see a 
particular promise in that technology, but we not sort of on a 
pathway of analysis of trying to figure out a technological way 
to stop cell phone usage in the car. We are not doing that type 
of----
    Mr. Harper. Of course, distracted driving has been an issue 
since the first AM radio got put in the first car.
    Mr. Strickland. Yes, sir.
    Mr. Harper. And so I know that we certainly don't want to 
interfere with anyone's ability to enjoy themselves while they 
are driving, but the texting is certainly something that we are 
interested in working on to work with you on that particular 
issue.
    Mr. Strickland. Well, the one other thing I would like to 
definitely underscore, Mr. Harper, I think you made a very good 
point. You know, distraction is more than just a phone. 
Distraction is more than just an android device or whatever the 
case may be. There is an element of personal responsibility 
that has to be involved with every driver. So as much as we are 
working on making sure the vehicle doesn't create more risk, it 
is also important to underscore that to make sure that people 
recognize that your only job behind the wheel is to drive.
    So thank you very much for noting that, sir.
    Mr. Harper. OK. Now, I will yield back the balance of time.
    Mrs. Blackburn. I thank the gentleman for yielding back.
    At this time Ms. Schakowsky, you are recognized for 5 
minutes.
    Ms. Schakowsky. Thank you. I will be very brief. I wanted 
to tell you, Mr. Strickland, that I got a very much appreciated 
call from the Secretary about the rulemaking and the rear 
visibility in vehicles, that the standard that I hope will come 
out, and while I am disappointed that it didn't come out in 
February as it was originally scheduled, he explained his 
absolute commitment to getting it done.
    So just for the record I wanted to thank you, and I also 
wanted you to comment on your commitment to issuing a strong 
rule and whether it is at all possible to move up that 
timeline.
    Mr. Strickland. Ms. Schakowsky, I absolutely give the very 
same commitment the Secretary gave to you. As I have had the 
honor to work with you on this particular issue as a staffer, 
and I remember beginning work on this issue in 2003, I am very 
proud of a lot of the work that I was able to share and assist 
members on over the years, but I will say the Cameron 
Gulbransen Act is probably one of the highlights in terms of 
what I think is such a special rule because it is about 
children's safety.
    So for that we at the agency want to make sure that we get 
this rule right, and we want to make very special care to do 
that, but absolutely we are laser focused on working through 
those issues and getting this, getting the rule promulgated as 
the Secretary issued the deadline.
    Ms. Schakowsky. Thank you very much. About two children get 
killed every month, so the sooner the better. Right.
    The other thing that you alluded to in your testimony, you 
briefly mentioned, under current law there is a loophole that 
allows rental car companies to lease out vehicles that are 
under safety recall without making the repairs. I frankly was 
pretty startled to find that out, and in 2004, two sisters, 
Rachael and Jacqueline Haugh, were killed in a Chrysler PT 
Cruiser that was under recall for steering problems yet rented 
out by Enterprise. The steering column malfunctioned, the car 
caught fire, and they veered into the path of an ongoing 
tractor trailer.
    I can't understand why there is any excuse for rental 
companies to loan out cars to individuals without making the 
necessary repairs which manufacturers usually provide for free.
    So you talked on this issue, and I wanted to know what 
authority NHTSA has or needs to prevent these avoidable 
accidents.
    Mr. Strickland. Ms. Schakowsky, the Department provided 
technical assistance to the Senate in regards to this issue. 
You are absolutely right. Right now rental car companies and 
used car companies have no obligation under law to fix a repair 
that has been issued under the Safety Act, which means you have 
unwitting and unsuspecting consumers that may be getting in 
vehicles that are not repaired and putting themselves at risk. 
These companies are in the stream of commerce, and I don't 
think that any consumer whatsoever should have an expectation 
or worry that the next car they rent may not be properly 
repaired and put their lives at risk.
    So we very much support the proposition of giving this 
authority under the Motor Vehicle Safety Act to then cross 
apply our enforcement authority over rental car companies and 
used car dealers so that we can make sure that these cars get 
repaired.
    Ms. Schakowsky. Thank you very much, and once again, thank 
you for all the work that you have done on the rear visibility 
rule, and I hope that we will see it as soon as possible. Thank 
you.
    Mr. Strickland. Thank you, Ms. Schakowsky.
    Mrs. Blackburn. Thank the gentlelady for yielding back, and 
at this time I recognize Mr. Guthrie for 5 minutes.
    Mr. Guthrie. Hey, thank you for coming here today. 
Appreciate having you.
    Mr. Strickland. Thank you, sir.
    Mr. Guthrie. Looking at the Senate Highway Bill, it has a 
lot of new requirements that you are going to have to put 
forth, some like the device recorder, the black box, and the 
push button ignition standards, and it asked you to move 
forward on rulemaking in some areas that your group is still 
studying, it puts a lot of mandates for you to do over the next 
course of the bill, and I guess my question is do you feel like 
that is going to overwhelm what you do? I know you are probably 
not overstaffed, and are you going to have to pull people from 
one project.
    Mr. Strickland. Au contraire.
    Mr. Guthrie. You are, you say are?
    Mr. Strickland. Oh, no. Overstaffing, quite the contrary.
    Mr. Guthrie. Oh. I know you are not.
    Mr. Strickland. Yes. We have a very active and vigorous 
force of 600.
    Mr. Guthrie. Exactly. That is what I figured. So all these 
new mandates come down. Does this concern you in your ability 
to finish projects you are on? Are you going to have to move 
people from one project to another?
    Mr. Strickland. Mr. Guthrie, we have a research and 
rulemaking priority plan which is based on data and risk. We 
work very hard to make sure that we allocate our resources in a 
way that we save the most lives in terms of the work that we 
do. While we recognize that in terms of our own analysis, there 
is clearly other issues that the Congress may ask us to take 
up, and we are more than willing and happy to do, but it has to 
be done in the context of recognizing that these have to be 
done within the context of the other rules that we are working 
on, which really do have a broad impact to save lives.
    Mr. Guthrie. So----
    Mr. Strickland. Every additional rule does add more burden. 
Then we definitely ask for, I guess, the ability to be able to 
adjust deadlines, you know, with the Secretary notifying the 
committees of jurisdiction of the reasons why we had to make 
those particular moves. But we will say that the deadlines in 
the Senate bill are incredibly aggressive. Frankly, I don't 
think that as they are currently written we would not be able 
to make those deadlines just by the very nature of regular 
rulemaking we would make those deadlines.
    Mr. Guthrie. Uh-huh. That is good to know, because I know 
your rulemaking process you assign by risk, as you just said, 
and so if the number one thing you are working on is the number 
one thing that is going to save lives, then as you move down, 
then if all the sudden you get these mandates from the outside, 
and of course, it is within the purview of Congress, it is 
something we need to understand that as we put new mandates on 
you, that either--if they were in your queue already at the 
high part of your queue, they would be high risk because that 
is what you are looking at.
    So we are going to ask you to pull people off of other 
projects it sounds like if we pass the deadlines that the 
Senate put into place.
    Mr. Strickland. We would ask to be able to work with the 
committees of jurisdiction on being able to establish 
timeframes to accomplish all the safety goals that they are 
asking. The things that are highlighted in the Senate bill are 
important. They are risks, but we always, I want to make sure 
that we can sort of align our resources and our workload so we 
can best address the risks that affect most people.
    Mr. Guthrie. And one other question. I know there is a 2-
year ban for somebody that works for your commission, I guess, 
agency----
    Mr. Strickland. Uh-huh.
    Mr. Guthrie [continuing]. To go work in the private 
industry when they are--and I know there are a lot of people 
that are automotive engineers that have specific skills or so 
forth, and you may want to hide them from private industry 
because I have been to proving grounds, test grounds, and 
things. These are highly-skilled people, highly-educated people 
who do this for private industry trying to make sure they have 
safety and security because we know our automotive suppliers 
want to put out safe vehicles.
    But if you needed somebody with those kind of technological 
ability and they knew that they came and worked for you for 
some number of years or a brief period of time and couldn't go 
back, is that a problem in recruiting I guess is my question, 
the 2-year ban? Do you think that is going to be an issue for 
you?
    Mr. Strickland. Mr. Guthrie, the Obama administration holds 
our ethics obligations to the highest level. We believe that 
our guiding light should be making sure that we serve the 
American people in an honest and forthright way.
    However, we also believe that the ethics rules should be 
thought about and considered and applied in a federally-
consistent manner. I think one of the impacts that you 
highlighted is that when you single out a particular agency, 
whether it is ours, the National Highway Traffic Safety 
Administration, or others, you have unintended consequences.
    Mr. Guthrie. Uh-huh.
    Mr. Strickland. We are more than happy to have a dialogue 
with the committee to discuss ways that we can work----
    Mr. Guthrie. Because this--I am about out of time. This 
doesn't ban them from lobbying. This bans them from going back 
and working in private industry.
    Mr. Strickland. That is correct.
    Mr. Guthrie. In the field. So if you have highly-technical 
vehicle engineers, and our automotive people have them, they 
have them working for them because they are in the business of 
putting out a safe product, and therefore, these people would 
really be banned for you to hire because it would hurt their 
careers. And they're not talking about going back and trying to 
influence policy. They are going back and making--going back 
and forth to make sure we have safe vehicles on the road. I am 
familiar with the industry. That is why I think that that is 
going to limit you in hiring those kinds of people.
    Mr. Strickland. Well, Mr. Guthrie, we are always mindful of 
trying to make sure we are blessed with some of the best 
automotive talent in the world that works for our agency. We 
are always mindful of the ability to be able to recruit and 
compete, you know, good talent going forward, and anything that 
we could do to make sure that we have clearly the highest 
ethical standards that are federally consistent and the ability 
to be able to actively compete, not only with private industry 
to bringing in the best but frankly other agencies across 
government to bring in the best talent. It is always something 
that we would be happy to discuss with the committee and 
hopefully find a way forward.
    Mr. Guthrie. Thank you. Thank you very much.
    Mrs. Blackburn. Thank the gentleman for yielding back, and 
I do not think we are going to do a second round. I just have 
two additional questions that I wanted to highlight with you 
and get your input.
    In the Senate bill why didn't that include a 
reauthorization for your vehicle safety programs? I think it 
did you highway programs but not your vehicle.
    Mr. Butterfield. Point of order, Madam Chairman. Are we 
going to do a second round or not do a second round?
    Mrs. Blackburn. If you would like to do a second round----
    Mr. Butterfield. Well, it appears that you are engaged in a 
second round which is contrary to what I thought the agreement 
was.
    Mrs. Blackburn. We can do a second round if everyone would 
like to.
    Mr. Butterfield. I am just trying to get----
    Mrs. Blackburn. I have two further questions.
    Mr. Butterfield [continuing]. The third panel on queue 
here.
    Mrs. Blackburn. Yes, sir. We are, too.
    Mr. Butterfield. Yes, well, I thought we had an agreement. 
Apparently we don't. Consider this the second round.
    Mrs. Blackburn. We will do so.
    So what we would like to hear is why didn't the Senate bill 
include a reauthorization for those vehicle safety programs.
    Mr. Strickland. Ms. Blackburn, I can't speak to the 
decision that the Senate made in terms of why they constructed 
the bill that they did. We provided technical assistance, and 
they made a decision not to include that particular provision.
    Mrs. Blackburn. OK. Thank you. Did you have any input on 
that decision?
    Mr. Strickland. We were asked. The Senate Commerce 
Committee and the other committees of jurisdiction of the 
Senate asked the agency for technical assistance. We provide 
direct technical assistance.
    Mrs. Blackburn. OK.
    Mr. Strickland. We don't--we are not involved in any policy 
decisions.
    Mrs. Blackburn. That is great, and then does electronic 
stability control present different challenges for different 
types of vehicles, or is it simply a matter of installing the 
same technology that has already been developed for smaller 
vehicles?
    Mr. Strickland. It is very different. There are so many 
different variables in establishing electronic stability 
control in heavy-duty vehicles. I presume that is what you are 
asking.
    Mrs. Blackburn. Yes.
    Mr. Strickland. And there is stability, there is roll 
stability, there is a number of other elements, there are 
different tests and protocols. It is a wildly different animal 
which will take time for us to make sure that we get it right.
    Mrs. Blackburn. OK. So you are just seeking further time?
    Mr. Strickland. We are working, we are currently working on 
the proposal, but in terms of your question, which is are light 
vehicles, electronic stability control cross applicable to 
heavy duty, the answer is no, they are not. We have to 
undertake new work to do so.
    Mrs. Blackburn. OK. With that, that is the extent of the 
questions that we were seeking.
    Mr. Butterfield, I recognize you for a second round.
    Mr. Butterfield. All right. Thank you.
    Administrator, in previous testimony to this committee you 
have expressed concern that the maximum civil penalty the 
agency can seek from a manufacturer is set in the statute at 
only $15 million per case, which adjusted for inflation comes 
to a little over $7 million in today's dollars. In 2010, it is 
assessed that maximum allowable penalties at the time against 
Toyota, $16.4 in one case, $16 million in another, for a total 
of $32 million.
    NHTSA noted in a letter to the company that without this 
cap Toyota could have been assessed penalties for $13.8 
billion. If Senate 1813 were to become law, there would be the 
potential for increased civil penalties up to $250 million per 
case.
    Question. How would increasing the civil penalties' cap 
strengthen the agency's ability to enforce safety rules? How 
would it affect your interactions with the auto companies?
    Mr. Strickland. Mr. Butterfield, we have the obligation, 
the duty to protect American safety regarding traffic crashes, 
and thereby, we regulate some of the largest industries on 
planet Earth. And frankly, a maximum penalty of over $17 
million is frankly a pittance to most of these I guess full-
line vehicle manufacturers.
    For us to be able to have a higher deterrent value, being 
able to not have to go into an enforcement posture in the first 
place, and therefore, use resources and time for investigating, 
we feel that a more significant penalty would frankly create a 
greater incentive for manufacturers to comply with the rules 
without us having to expend more resources to investigate and 
enforce.
    We feel that it is high time that these particular 
penalties are reflective of the size of the industry, and 
therefore, we gave technical assistance to the Senate, and we 
are happy that the Senate did include an increase in the civil 
penalty provision.
    Mr. Butterfield. Thank you. I yield back.
    Mr. Strickland. Madam Chairman, I would like to correct one 
thing for the record. My apologies. Your question you asked me 
about motorcoach belt safety, I apologize that factually the 
final rulemaking is within the Department of Transportation. It 
has not gone over to OMB yet, but we have finished our 
particular work. It is right now in review within the 
Department.
    Mrs. Blackburn. I thank you for the correction. We will 
note it in the record.
    Mr. Strickland. Thank you.
    Mrs. Blackburn. At this time I recognize--Ms. Schakowsky 
passes.
    Mr. Strickland, we thank you. You are always generous with 
your time, and we thank you for coming before us today, and 
with there being no further questions from the panel, we would 
dismiss you, and have a very brief recess while we set our 
third panel for the day, and, again, we thank you for your 
generosity of time.
    Mr. Strickland. Thank you, Madam Chairman. We look forward 
to working with the committee.
    Mrs. Blackburn. And our witnesses for the third panel, we 
are moving right along this morning, so Mr. Butterfield was 
just saying, well, if we had 3 minutes for each opening 
statement we could do this in 18 minutes, but we will not rush 
you. We will not rush you. I assure you.
    Our witnesses in the order that they will give us their 
testimony this morning, Mitch Bainwol, who is the President and 
CEO of the Alliance of Automobile Manufacturers. Next is 
Michael Stanton. He is the President and CEO of Global 
Automakers. Our third witness, Victor Parra, President and CEO 
of United Motorcoach Association. Our fourth witness, Peter 
Pantuso, President and CEO of the American Bus Association. Our 
fifth witness is the Honorable Joan Claybrook, former NHTSA 
Administrator and Consumer Co-Chair of the Advocates for 
Highway and Auto Safety. Our final witness is Ami Gadhia, 
Senior Policy Counsel at Consumers Union, Political, and Action 
from Consumer Reports.
    We are delighted that each of you are here. We thank you 
for your time and for the preparation in your testimony. You 
are each going to be recognized for 5 minutes. I would remind 
you all, move the microphone toward you, touch the button to 
turn it on. When you see the light turn yellow on the timer, 
you have 1 minute to wrap up.
    Mr. Bainwol, you may begin.

  STATEMENTS OF MITCH BAINWOL, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, ALLIANCE OF AUTOMOBILE MANUFACTURERS; MICHAEL J. 
STANTON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF 
   GLOBAL AUTOMAKERS; PETER J. PANTUSO, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, AMERICAN BUS ASSOCIATION; VICTOR S. PARRA, 
   PRESIDENT AND CHIEF EXECUTIVE OFFICER, UNITED MOTORCOACH 
  ASSOCIATION; JOAN CLAYBROOK, FORMER ADMINISTRATOR, NATIONAL 
   HIGHWAY TRANSPORTATION SAFETY ADMINISTRATION, CONSUMER CO-
   CHAIR, ADVOCATES FOR HIGHWAY AND AUTO SAFETY; AND AMI V. 
         GADHIA, SENIOR POLICY COUNSEL, CONSUMERS UNION

                   STATEMENT OF MITCH BAINWOL

    Mr. Bainwol. Chairman Blackburn, Mr. Butterfield, on behalf 
of 12 leading car companies, thank you for this opportunity to 
testify today. I am Mitch Bainwol, President of the Alliance of 
Automobile Manufacturers. I represent three U.S. base 
companies, as well as nine iconic European and Japanese brands. 
Our companies sell three of four cars purchased in the U.S.
    I am pleased to say that our industry is leading America 
out of recession after a nearly catastrophic 2008 and '09, car 
sales were up about 10 percent each of the last 2 years, with 
forecasts strong for 2012 as well. Domestic and foreign-based 
companies are adding shifts, plants, and jobs in the United 
States. Exports are rising again. BMWs from South Carolina, BWs 
from Tennessee, Toyotas from Kentucky, Mercedes from Alabama, 
and Detroit three products moving literally all over the globe. 
All tolled eight million Americans owe their employment to this 
sector, at least 10,000 employees in each of 47 States.
    So it is an honor to represent manufacturers who view 
safety in a very serious way and employ thousands of engineers 
who work every day to make the vehicles safer, and the results 
are striking. I think we are going to have a slide brought up. 
Perhaps not. There we go.
    [Slide.]
    OK. As you can see from this slide, if a picture is worth a 
thousand words, a trend line tells a pretty compelling story. 
What you have from--on the yellow line is the vehicles miles 
traveled, moving from roughly 500 billion miles to 3 trillion 
miles from 1950 to 2010. Then you have a line going in the 
inverse direction, and that is the fatality rate. So it is 
really a stunning success story. I don't mean to say that the 
job is done, but I think this slide as a predicate for today's 
hearing really does tell a very compelling story.
    And I would say that the prognosis for future gains is 
outstanding. We are at the dawn of a new golden age in safety 
developments. Driver assist technologies that dramatically 
enhance crash avoidance are already in dealerships today. 
Technologies like blind spot alerts, lane departure warnings, 
autonomous breaking, adaptive cruise control, and more.
    Two weeks ago I was in Sweden where I test drove a Volvo 
with city safety, and that is Volvo's technology that assists 
drivers with automatic braking in certain cases. The Insurance 
Institute for Highway Safety here took a snapshot of accidents 
with the Volvo XE60 equipped with this technology and found a 
27 percent reduction in front-end collisions relative to 
similar vehicles. A 27 percent reduction.
    The implications for the safety of drivers and passengers, 
for insurance rates, for traffic flow, and for fuel economy is 
nothing short of profound, and that is just one technology. So 
the goal as a matter of policy must be to maximize the rate of 
innovation. A review of the Senate reauthorization hinges on 
that concept. Do the provisions enhance the ability of 
automakers to invent and implement new technologies or not? Do 
the provisions help or hinder consumers to access these new 
technologies?
    With innovation in mind we have three particular concerns 
with the Senate bill. First, Section 304 seeks to reverse 
existing NHTSA policy and recent court decisions regarding the 
early warning reporting data. While transparency generally is a 
good idea, we agree with NHTSA and the courts that existing 
regulations strike the right balance between publically-
available data and confidential business information.
    The early warning system was specifically designed so that 
NHTSA could benefit from the widest-possible universe of 
information but would also be responsible for screening the 
data to avoid precipitating, premature, and potentially 
misplaced panic among drivers, and that would stimulate costly 
and baseless litigation and inhibit innovation.
    Second, relating to Section 406, the Alliance supports 
equipping new vehicles with event data recorders, EDRs, with 
sufficient lead time to implement this technology for those few 
manufacturers who have not yet done so. Yet 406 both requires 
NHTSA to conduct a study on the privacy implications from 
expanding the scope of the EDRs and mandates a second 
rulemaking in a short timeframe, regardless of the outcome of 
that study. Rulemaking without first concluding the study puts 
the cart before the horse. Congress and the public should have 
a clear understanding of the privacy implications as well as 
the cost consumers will absorb before the agency writes a new 
rule.
    And third, the Senate bill targets the auto industry in a 
baseless, counterproductive, and punitive fashion. It tends to 
signal the auto employees throughout this country that 
policymakers are hostile to the sector by imposing civil 
penalties 15 times the magnitude of penalties facing other 
manufacturers, also large businesses, of consumer products. The 
rationale for this super penalty is flawed. Its imposition 
would damage our ability to compete and provide jobs, and it 
would divert resources that would be better spent in 
innovation.
    Today the average car on the road is about 11 years old. 
That average car doesn't have electronic stability control. It 
doesn't have sophisticated airbags, it doesn't have features 
like voice control to keep eyes on the road and hands on the 
wheel. It doesn't have the new driver assist technologies that 
I spoke about. The average car probably gets mileage 20 percent 
worse than today's cars that are comparable, and it doesn't 
have current advanced environmental controls.
    The illustration makes a very simple point. The best thing 
we can do for consumers is not just facilitate innovation but 
facilitate replacing old cars with new cars for safety, for the 
environment, for the health of the economy we should make cars 
as safe, I am sorry, as affordable as possible. That, of 
course, means that we have to be careful not to price cars out 
of reach with noble intent but counterproductive regulatory 
access.
    Many thanks for this chance to participate.
    [The prepared statement of Mr. Bainwol follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.006
    
    [GRAPHIC] [TIFF OMITTED] 77607.007
    
    [GRAPHIC] [TIFF OMITTED] 77607.008
    
    [GRAPHIC] [TIFF OMITTED] 77607.009
    
    [GRAPHIC] [TIFF OMITTED] 77607.010
    
    [GRAPHIC] [TIFF OMITTED] 77607.011
    
    [GRAPHIC] [TIFF OMITTED] 77607.012
    
    [GRAPHIC] [TIFF OMITTED] 77607.013
    
    [GRAPHIC] [TIFF OMITTED] 77607.014
    
    Mrs. Blackburn. I thank the gentleman for yielding back.
    Mr. Stanton, you are recognized.

                STATEMENT OF MICHAEL J. STANTON

    Mr. Stanton. Yes, and in the spirit of Mr. Butterfield's 
suggestion, I will be brief. I do want to note that the 
provisions that are in the House and the Senate bill that 
extend incentive grant funding for programs to improve safety 
belt use and implement alcohol and impaired driving measures, 
countermeasures are extremely important. We believe these 
programs should be funded.
    Generally, where the Senate has prescribed something but 
NHTSA is already proceeding with rulemaking, we would support 
the continuation of the NHTSA rulemaking, and this includes 
things such as brake pedal override, push button ignition 
systems, mandatory installation of EDRs, and pedal placement, 
which they are looking at. We think that is appropriately a 
research project and not subject for rulemaking at this time.
    There are a couple of provisions in the Senate bill, 
though, that are problematic. The bill proposes increases in 
non-compliance penalties reaching levels that are 
disproportionately higher than those under other current 
regulatory laws. Vehicle manufacturers take their safety 
compliance obligations extremely seriously, and the substantial 
increase in the penalty amount seems to be unnecessarily and 
unfairly punitive.
    The bill would also create a presumption in favor of public 
disclosure of manufacturer-submitted information relating to 
potential defects. This information is manufacturing quality 
data which has substantial competitive value. This matter has 
been previously and carefully considered by the agency and the 
courts, and we see no need to revise the balance that has been 
struck.
    The Senate bill would also add an additional civil penalty 
to existing criminal penalties for submitting false information 
and reports to NHTSA. Layering additional civil fines on top of 
potential criminal penalties for making false statements to the 
government is unnecessary and unlikely to enhance motor vehicle 
safety.
    And also the section on event data recorders is overly 
prescriptive. NHTSA currently has several rulemaking 
proceedings underway or planned to address these matters. It 
would be more appropriate to allow NHTSA to complete its 
investigations and issue rules based upon a full and 
comprehensive analysis of these complex matters.
    And finally, we believe it would be premature for Congress 
to mandate changes to the NHTSA recall process. NHTSA is 
conducting a comprehensive review of the recall process based 
on the Government Accountability's June 15, 2011, report. 
Congress should refrain from imposing any new mandates on the 
recall process without benefit of this review.
    Thank you, ma'am.
    [The prepared statement of Mr. Stanton follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.015
    
    [GRAPHIC] [TIFF OMITTED] 77607.016
    
    [GRAPHIC] [TIFF OMITTED] 77607.017
    
    [GRAPHIC] [TIFF OMITTED] 77607.018
    
    [GRAPHIC] [TIFF OMITTED] 77607.019
    
    [GRAPHIC] [TIFF OMITTED] 77607.020
    
    [GRAPHIC] [TIFF OMITTED] 77607.021
    
    [GRAPHIC] [TIFF OMITTED] 77607.022
    
    Mrs. Blackburn. I thank the gentleman.
    Mr. Pantuso, you are recognized.

                 STATEMENT OF PETER J. PANTUSO

    Mr. Pantuso. Madam Chairman, thank you for holding this 
hearing.
    ABA has been working to making bus travel safer for many 
years. We worked with the late Congressman Paul Gilmore and in 
recent years with Congressman Bill Shuster on legislation that 
has really formed the basis for H.R. 7 Safety Provisions.
    ABA represents 4,000 members, 800 of those are bus 
companies representing 60 percent of all the private 
motorcoaches on the road today. Our members provide a variety 
of transportation services including schedule service, charter 
and tour, and commuter service, and the industry provides more 
than 270 million passenger trips annually.
    It is clear that the bus industry is the safest form of 
surface transportation, however, accidents do happen, and we 
know that one fatality is one too many. ABA has reaffirmed our 
support for full implementation of DOT's Motorcoach Safety 
Action Plan. We provide member safety ratings on our Web site 
to assist consumers in finding safe bus companies, and we 
regularly review their records and ask unsafe companies to 
leave the association.
    ABA and its members believe there should be seatbelts on 
new motorcoaches. Our public comments submitted to NHTSA on 
this regulation are very clear.
    We agree with proponents of S. 1813 that advanced window 
glazing, roof crush strengths, emergency egress, fire detection 
and suppression, and stability control must be studied. If 
appropriate rulemaking is required, they must be initiated if 
they find problems in their research.
    But, however, the time limits in the Senate bill are just 
too tight. NHTSA's recent multi-year experience of developing a 
seatbelt standard serves as a prime example of why adequate 
time is needed to structure a science-based approach which 
includes proper research and testing to save lives.
    And I want to stress this point. Our goal is to save lives 
and ensure the viability of our industry, not to promulgate one 
size fits all rules. Automobiles and airplanes both have 
seatbelts, but both are very different types of belts, seats, 
and restraint systems. ABA is concerned that S. 1813's rush to 
get new rules out will take precedence over issuing the right 
rules.
    ABA also believes that NHTSA's multiple motorcoach 
rulemakings should be done in concert with one another. What we 
don't want to see is a rulemakings conclusion that negates the 
prior rulemaking safety benefits. For example, is testing 
determines that to enhance vehicle performance at a rollover 
windows should be strengthened or bonded to the coach as they 
are in Europe, that decision could impact adequate egress since 
in the U.S. windows are part of the exit systems. But if the 
decision is made on windows and it has already been finalized, 
the agency would need to restart that rulemaking process.
    The Senate bill also allows NHTSA to order retrofits of 
motorcoaches that could force a complete reengineering of the 
vehicle and force many small businesses out of business. 
Operators can comply with requirements of attaching readily-
available equipment, but operators are very small business 
people, and much like you or I, they can no more be expected to 
remanufacture a coach than we could reengineer the vehicle that 
we purchase.
    We feel that early adoption of the new technology is also 
clear, and that tax credits, grants, and loans to small 
operators are key. Without this support the operators will have 
to bear the brunt of as much as $70,000 in additional capital 
costs and unfunded mandates.
    ABA is concerned that the Senate bill does not have any 
provision for operators' liability protection in those cases 
where the bus operator is compliant with current Federal 
mandates.
    Please know that our differences with some of the 
provisions of S. 1813 does not diminish our desire for a strong 
and robust bus safety provisions.
    In conclusion, Madam Chairman, I suggest that there must be 
also an increase in safety enforcement of existing regulations 
and consistent enforcement has enabled the illegal carriers to 
operate freely in too many markets. FMCSA must be given the 
authority to adequately close companies and to impound their 
busses if need be. Data shows that more than half of the 
motorcoach fatalities that have taken place over the past 
decade were caused either by known unsafe carriers or illegal 
carriers, and these fatalities should have never occurred.
    We applaud FMCSA for its current enforcement actions 
including the safety sweeps by combining Federal, State, and 
local taskforce, and we know that working together with this 
committee, other committees that we can make the safest form of 
surface transportation even safer.
    Thank you.
    [The prepared statement of Mr. Pantuso follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.023
    
    [GRAPHIC] [TIFF OMITTED] 77607.024
    
    [GRAPHIC] [TIFF OMITTED] 77607.025
    
    [GRAPHIC] [TIFF OMITTED] 77607.026
    
    [GRAPHIC] [TIFF OMITTED] 77607.027
    
    [GRAPHIC] [TIFF OMITTED] 77607.028
    
    [GRAPHIC] [TIFF OMITTED] 77607.029
    
    [GRAPHIC] [TIFF OMITTED] 77607.030
    
    [GRAPHIC] [TIFF OMITTED] 77607.031
    
    [GRAPHIC] [TIFF OMITTED] 77607.032
    
    [GRAPHIC] [TIFF OMITTED] 77607.033
    
    [GRAPHIC] [TIFF OMITTED] 77607.034
    
    [GRAPHIC] [TIFF OMITTED] 77607.035
    
    [GRAPHIC] [TIFF OMITTED] 77607.036
    
    Mrs. Blackburn. I thank the gentleman.
    Mr. Parra.

                  STATEMENT OF VICTOR S. PARRA

    Mr. Parra. Thank you, Chairman Blackburn, Ranking Member 
Butterfield, and members of the committee. I appreciate you 
calling this hearing today and the opportunity to appear before 
this committee and represent the bus and motorcoach industry. 
This committee has a long and distinguished record of promoting 
vehicle safety and lies at the center of this Nation's 
discourse on best practices to achieve safe and efficient 
travel.
    On behalf of the United Motorcoach Association it is my 
goal to provide the committee our perspective on the Bus and 
Motorcoach Safety Provisions included in the American Energy 
and Infrastructure Jobs Act, H.R. 7, as reported by the House 
Transportation and Infrastructure Committee, and those of S. 
1813, the Moving Ahead for Progress in the 21st Century, as 
passed by the Senate last week.
    Founded in 1971, United Motorcoach Association is the 
Nation's largest association of bus and motorcoach companies 
and industry suppliers with over 1,200 members located across 
North America. Membership represents the full spectrum of bus 
and motorcoach operations from small family charter and tour to 
nationwide schedules and commuter service operations.
    The United States Small Business Administration estimates 
that over 90 percent of the privately-owned bus and motorcoach 
companies meet the definition of a small business. Motorcoaches 
have one of the strongest safety records amongst all modes of 
transportation with an average of only 20 fatalities a year. 
While even on fatality is one fatality too many, the motorcoach 
industry operates in an environment that yields over 32,000 
fatalities annually, representing less than one-tenth of 1 
percent of those fatalities.
    UMA believes the best way to ensure improved safety is to 
enforce existing Federal motor carrier safety regulations and 
support safety initiatives that are backed by science, 
research, and testing.
    While the--with the life expectancy well over 20 years, a 
modern motorcoach represents a financial investment of $500,000 
to $600,000. Consequently, our industry demands vehicles that 
offer the best known design and construction that protects 
their passengers operationally from unforeseen accidents. UMA 
steadfastly welcomes changes in motorcoach occupant protection; 
however, those changes must be founded by science and testing 
by appropriate Federal agencies. Any mode of transportation 
that provides 720 million passenger trips annually demands the 
best science and regulations our Federal agencies can produce.
    We believe H.R. 7 provides the most rational and reasonable 
approach to enhanced bus and motorcoach safety. Most of its 
provisions were largely based on the bill authored by 
Congressman Bill Shuster, H.R. 1390, which we strongly support, 
because it recognizes the complexities of motorcoach 
engineering and operations, mandating that science must drive 
policy and not the reverse.
    H.R. 7 incorporates the long-standing recommendations of 
the National Transportation Safety Board and is consistent with 
the Secretary of Transportation's Motorcoach Safety Action 
Plan. Indeed, NHTSA is well on its way with crash tests that 
have resulted in proposed rulemaking, requiring three-point 
seatbelts for every passenger. UMA supports this proposed 
rulemaking.
    Furthermore, our industry manufacturers have been proactive 
in installing seatbelts. In fact, in a study that we did with 
our motorcoach manufacturers, we learned that about, in fact, 
100 percent of the motorcoaches put in service in the last year 
included seatbelts.
    In contrast, UMA strongly opposes the Bus and Motorcoach 
Safety Provisions included in this 1813. We believe the safety 
provisions are an example of extreme government overreach and 
will not lead to increased motorcoach safety. Many of its 
mandates are overlapping, unnecessary, and are currently under, 
already under research and testing by Federal agencies.
    Moreover, many of the mandates are simply unworkable within 
the timeframes allotted. The motorcoach tour and travel 
industry is an important economic engine in our country. It 
contributes nearly $112 billion in total economic activity in 
the United States. At a time when the motorcoach industry is 
struggling to recover in this economy, this is not a time to 
impose unnecessary and excessive mandates on industry with an 
outstanding safety record.
    In conclusion, you may believe that the contrast between 
the Bus and Motorcoach Safety Provisions in the House bill and 
Senate bill could not be more striking, and we appreciate this 
committee's focus on that. UMA stands ready to contribute to 
ongoing efforts to enhance safety of bus and motorcoach 
operations.
    Thank you, Chairman Blackburn.
    [The prepared statement of Mr. Parra follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.037
    
    [GRAPHIC] [TIFF OMITTED] 77607.038
    
    [GRAPHIC] [TIFF OMITTED] 77607.039
    
    [GRAPHIC] [TIFF OMITTED] 77607.040
    
    [GRAPHIC] [TIFF OMITTED] 77607.041
    
    [GRAPHIC] [TIFF OMITTED] 77607.042
    
    [GRAPHIC] [TIFF OMITTED] 77607.043
    
    Mrs. Blackburn. I thank you, and Ms. Claybrook, you are 
recognized.

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you very much, Madam Chairman and 
members of the subcommittee. My name is Joan Claybrook. I am 
here representing the Advocates of Highway and Auto Safety, a 
coalition of consumer health safety and insurance companies.
    For the past 20 years passage of a Surface Transportation 
Bill under the leadership of both Republicans and Democrats has 
resulted in the adoption of some of the most significant 
advances in highway and auto safety that have literally saved 
thousands of lives prevented millions of injuries, saved 
billions of dollars in healthcare and societal costs, and this 
year's bill should be no different.
    For these reasons we want to move forward with this 
unfinished agenda that we have spelled out in our full 
statement. The Senate passed Transportation Bill S-1813 or MAP-
21 as it is called, adopted with strong bipartisan support, 
includes many important vehicle safety protections for families 
whether they are traveling by car or by intercity motorcoach.
    The MAP Bill which we support requires NHTSA to issue new 
safety standards to ensure complex electronic systems that 
control the vehicle meet minimum quality and safety concerns as 
they must today in aircraft. Other provisions would require 
vehicle brake systems that can always overrun accelerator 
control and foot pedals for the brake and accelerator that are 
not located too closely together.
    Additionally, the bill would ensure consumers have better 
access to agency information about safety-related data, 
recalls, and defects. Other provisions addressed, whistleblower 
protection, conflicts of interest by former NHTSA employees, 
and corporate accountability for document submissions to ensure 
that the government safety investigations proceed without 
impediment.
    It also directs agency actions to better protect children 
inside impact crashes, improve child-restraint anchoring 
systems, increase seatbelt usage with rear seatbelt reminders, 
and address the risk of horrific death among young children 
inadvertently left behind in hot vehicles.
    Nearly 725 million motorcoach trips are taken annually, 
almost matching the number of airline trips taken annually, and 
as one of my colleagues here said, motorcoaches stay on the 
highway for about 20 years. So when you make an improvement of 
safety in a motorcoach, it is going to do a safety protection 
for people day after day, year after year after year. And the 
total cost the Senate bill is 10 cents a trip. I am sure that 
every American would be willing to pay 10 cents a trip to be 
assured of the safety protections in that Senate bill.
    Unfortunately, motorcoaches are not held to the same high 
safety standard as passenger vehicles or commercial aviation 
today. Because motorcoaches carry up to 55 passengers, when a 
crash does occur, it is both catastrophic and it is deadly. 
Attached to my statement is a chart describing over 178 
motorcoach crashes since 1990, that have killed 317 people and 
injured 3,000. For more than 40 years the National 
Transportation Safety Board, that we rely on for these issues, 
has investigated fatal motorcoach crashes and issued numerous 
recommendations, many on the agency's most wanted list, most 
wanted to be installed in new vehicles.
    Yet these recommendations to improve occupant protection in 
a crash have been ignored or delayed at the Department of 
Transportation. We know what to do to protect them, the people 
who ride in these buses, an enactment of the MAP-21 directs DOT 
to take actions with many reasonable deadlines on many of the 
most critical NTSB recommendations.
    The motorcoach safety language adopted by the Senate 
includes what we call the Greyhound Compromise, which was 
negotiated and agreed to last summer. Not only did Greyhound 
endorse the occupant protection provisions of the bill, but Mr. 
David Leach, Greyhound CEO, stood with family members, Senators 
of both parties, and safety groups and stated that these 
improvements should be adopted industry wide and that Greyhound 
supported, ``the strongest safety legislation,'' not, ``the 
weakest.''
    The most effective legislation to correct deadly and 
dangerous deficiencies is contained in MAP-21. My prepared 
statement goes into great detail about this and compares the 
provisions with H.R. 7.
    Unfortunately, Motorcoach Safety Provisions in H.R. 7 are 
not as comprehensive or specific and include unnecessary delays 
and protracted deadlines. On the other hand, the Greyhound 
Compromise requires timely action on key NTSB recommendations 
that will ensure passengers are protected with seatbelts, anti-
ejection window glazing, roof crush protection, tire pressure 
monitoring systems, and roll-over protection--prevention 
technology. And I would say that roll over is the source of 
most severe cause of injury in over 50 percent of these 
crashes.
    These safety technologies are affordable costs, and as I 
mentioned a dime per passenger trip and are already available 
as optional equipment on--by motorcoach manufacturers who do 
not oppose the Senate bill. There is no excuse for delaying any 
longer. We strongly urge the subcommittee to support the 
provisions of MAP-21.
    Thank you so much for the opportunity to testify.
    [The prepared statement of Ms. Claybrook follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.044
    
    [GRAPHIC] [TIFF OMITTED] 77607.045
    
    [GRAPHIC] [TIFF OMITTED] 77607.046
    
    [GRAPHIC] [TIFF OMITTED] 77607.047
    
    [GRAPHIC] [TIFF OMITTED] 77607.048
    
    [GRAPHIC] [TIFF OMITTED] 77607.049
    
    [GRAPHIC] [TIFF OMITTED] 77607.050
    
    [GRAPHIC] [TIFF OMITTED] 77607.051
    
    [GRAPHIC] [TIFF OMITTED] 77607.052
    
    [GRAPHIC] [TIFF OMITTED] 77607.053
    
    [GRAPHIC] [TIFF OMITTED] 77607.054
    
    [GRAPHIC] [TIFF OMITTED] 77607.055
    
    [GRAPHIC] [TIFF OMITTED] 77607.056
    
    [GRAPHIC] [TIFF OMITTED] 77607.057
    
    [GRAPHIC] [TIFF OMITTED] 77607.058
    
    [GRAPHIC] [TIFF OMITTED] 77607.059
    
    [GRAPHIC] [TIFF OMITTED] 77607.060
    
    [GRAPHIC] [TIFF OMITTED] 77607.061
    
    [GRAPHIC] [TIFF OMITTED] 77607.062
    
    [GRAPHIC] [TIFF OMITTED] 77607.063
    
    [GRAPHIC] [TIFF OMITTED] 77607.064
    
    [GRAPHIC] [TIFF OMITTED] 77607.065
    
    [GRAPHIC] [TIFF OMITTED] 77607.066
    
    [GRAPHIC] [TIFF OMITTED] 77607.067
    
    [GRAPHIC] [TIFF OMITTED] 77607.068
    
    Mrs. Blackburn. Thank you, Ms. Claybrook.
    Ms. Gadhia.

                   STATEMENT OF AMI V. GADHIA

    Ms. Gadhia. Good morning, Chairman Blackburn.
    Mrs. Blackburn. Slide the microphone a little closer.
    Ms. Gadhia. Is that better?
    Mrs. Blackburn. That is perfect.
    Ms. Gadhia. Good morning, Chairman Blackburn and Ranking 
Member Butterfield. My name is Ami Gadhia, and I am Senior 
Policy Counsel with Consumers Union, the public policy and 
advocacy arm of Consumer Reports.
    CU believes that the vehicle safety provisions passed by 
the Senate as a part of its Surface Transportation Bill will 
provide NHTSA with critical new authorities to help promote 
consumer vehicle safety.
    However, CU also believes that there are ways in which the 
Senate language can be further strengthened to address certain 
critical consumer safety issues and urges the House to include 
these additional provisions in its own bill.
    CU supports the requirement that NHTSA issue rules 
regarding vehicle stopping distance, brake override, and pedal 
placement. We have recommended the issuance of safety standards 
in these areas for several years and believe that their 
adoption will provide important safety features in passenger 
vehicles.
    We are also glad to see a proposal to establish a council 
for vehicle electronics, vehicle software, and emerging 
technologies, and a proposal to require NHTSA to set a 
performance standard for electronic systems in cars.
    We support the provisions for grants to States that enact 
and enforce anti-distracted driving laws and graduated driver's 
licensing laws for teenagers. We also strongly support a 
requirement that NHTSA prioritize the setting of new safety 
standards for car seats for children as well as prioritize 
performing new research into emerging child safety concerns.
    CU applauds provisions making improvements to NHTSA's 
public database of consumer safety reports. This database is a 
vital tool for NHTSA, automakers, safety advocates, and the 
public to identify emerging hazard trends. This tool, in turn, 
can help save lives.
    However, this database has not been as consumer friendly or 
as organized as it could be. The Senate passed a bill that 
changes this by requiring NHTSA to improve the database's 
organization, functionality, and searchability. Consumers will 
also benefit if NHTSA makes vehicle recall information 
available on the web and if the agency makes this recall 
information searchable by make, model, and VIN. All of these 
changes will make a big difference for consumers seeking 
information about the safety of the cars they own or plan to 
purchase.
    Recall efficacy is another important issue. According to 
NHTSA, the average consumer response rate to vehicle recalls is 
roughly 70 percent. Giving NHTSA the authority to require 
manufacturers to issue additional recall notices and to take 
additional steps to locate and notify each individual 
registered as the owner or leasee can also help improve recall 
completion rates, thereby helping to make our roads safer.
    We also support making data gathered under NHTSA's Early 
Warning Reporting System available to the public. We have 
previously recommended that consumer complaint numbers 
submitted by manufacturers to NHTSA under the EWR System should 
be made by public by NHTSA and should be easily searchable.
    Requiring EDRs or Event Data Recorders in all new cars from 
model year 2015, onwards with appropriate privacy controls and 
disclosures will mean that more of these data can help police 
and accident investigators reconstruct what happened in a 
crash.
    Finally, in the event that a manufacturer violates the law, 
raising the maximum civil penalty that NHTSA could levy for 
violations from $17 million to $250 million will help act as a 
deterrent against future violations that imperil public safety. 
It should be noted that the $250 million figure is the 
outermost limit of what NHTSA could possibly fine a company for 
a series of violations.
    As noted, we are happy to see several of our 
recommendations in the Senate-passed bill, but there are 
additional elements that are missing that we urge the committee 
to take up as it considers Surface Transportation legislation.
    First, gear shifters should be designed so that a driver 
can quickly identify the neutral position and easily shift 
gears to regain control of a car in a panic situation. There 
are also additional improvements needed in the child safety 
seat standards that NHTSA administers. CU recommends that the 
agency revise FMVSS 225 to allow anchors and tethers to be used 
with car seats for children to at least 65 pounds or greater.
    We next urge the House to include in its legislation 
language requiring rental car companies to make any recall-
related repairs before they rent cars to consumers. Regarding 
distracted driving, NHTSA is currently in the process of 
finalizing its in-car distraction guidelines for manufacturer. 
In order to ensure the widest application of these guidelines, 
CU recommends that the guidelines be incorporated into NHTSA's 
New Car Assessment Program or NCAP.
    CU would also like to see vehicle roof strength and seat 
back strength requirements improved. Specifically, we would 
like to see a dynamic rollover test, not simply a static roof 
crush test as is currently the case.
    As the House moves forward with its consideration of its 
own bill, the CU urges you to include those provisions 
described in your legislation as well as the additional 
provisions we have described.
    We thank the committee for the opportunity to present our 
recommendations and look forward to assisting you as you move 
forward.
    [The prepared statement of Ms. Gadhia follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.069
    
    [GRAPHIC] [TIFF OMITTED] 77607.070
    
    [GRAPHIC] [TIFF OMITTED] 77607.071
    
    [GRAPHIC] [TIFF OMITTED] 77607.072
    
    [GRAPHIC] [TIFF OMITTED] 77607.073
    
    [GRAPHIC] [TIFF OMITTED] 77607.074
    
    [GRAPHIC] [TIFF OMITTED] 77607.075
    
    [GRAPHIC] [TIFF OMITTED] 77607.076
    
    [GRAPHIC] [TIFF OMITTED] 77607.077
    
    Mrs. Blackburn. Thank you for your testimony.
    At this time we are going to recess to go vote. We have got 
just under 2 minutes left on the clock to cast our vote. What 
we are going to try to do is cast the vote and come back during 
the recommittal. We will see how that works when we get to the 
floor. We have got three amendment votes and then a 
recommittal.
    So our goal is to not hold you needlessly. We do have some 
questions we would like to get on the record, but at this time 
we will consider the committee in recess.
    [Recess.]
    Mrs. Blackburn. I will call us back into order, in session. 
Thank you all for bearing with us and recognize myself for 5 
minutes for questions.
    Mr. Bainwol and Mr. Stanton, I would like to begin with 
you. We have talked about the safety mandates in the Senate 
bill. Mr. Strickland has talked about some of the safety 
guidelines. I know many of those came from the industry, but I 
want to look specifically at the safety mandates that are in 
the Senate version of the bill right now, and what I would like 
to know going back to your comment, Mr. Bainwol, about 
affordability of safe cars, what would these mandates, what 
would they add to the sticker price of a new car, and then how 
do the new regulatory mandates affect your efforts and your 
abilities to develop and implement your own safety technologies 
that you bring forward through R&D, and then the third 
component of this since we are looking at the average age of a 
car on the road right now being 10-1/2 years, do you have 
concerns regarding the increasing costs and affordability of 
cars and whether that puts the price of safety beyond the means 
of many Americans in this economy?
    So, Mr. Bainwol and then Mr. Stanton.
    Mr. Bainwol. There is a lot to that, but let me try to 
unpack it a bit. I do think the critical thing here is making 
sure that we can trigger the replacement process. Mandates that 
build the cost of a vehicle that make it unaffordable means 
that we are not realizing the objective, which is to save 
lives, and so I think everybody at the table has a common 
objective, and that is how do you maximize the savings of live, 
and for us that means a prudent, data-driven process where you 
make priorities and you determine where you get the most bang 
for the buck, and you do the research to make sure that there 
is no unintended consequences and that it is efficacious and 
that there will be a consumer demand for it.
    What that really means in short is that from a practical 
perspective we think NHTSA's plan is a pretty good one, and we 
think that the notion of adding political regulatory earmarks, 
which is basically what the Senate has done, is not a great 
idea because it interferes with the ability to execute the 
NHTSA plan. It does raise costs. We can't really project what 
the cost would be because we don't know how they would define 
the mandate, but it does raise cost. It does confuse the 
mission, and I don't think it leads to an outcome that we all 
prefer, which is safer cars.
    Mrs. Blackburn. Thank you. Mr. Stanton.
    Mr. Stanton. Yes. I would put it in a little bit bigger 
context as you know that we have, are on the chart to hit 54-1/
2 miles per gallon by 2025, and the cost increase that the 
government estimated just to go to the 2016, would be about 
$1,000 per car and from 2017, to 2025, about another $2,000, 
and I just testified before the National Academy of Sciences, 
and they are looking at standards from 2010, to 2030, and where 
we are going, and I think we are working with the 
administration on fuel cell vehicles and EVs and California 
wants 15.4 percent of their vehicles to be electric vehicles or 
fuel cell vehicles by 2025.
    So there are costs that are involved in that, and then when 
you add the safety requirements, and our organization and all 
of our members are really about enhancing vehicle safety. We 
have been working with NHTSA on all of the rulemakings. We, as 
my testimony I hope conveyed, is that we don't want fruitless 
requirements or redundant requirements, but the affordability 
at the end of the day. We are doing OK. I mean, 2009 was a 
really bad year, '10 was a little bit better, '11 and '12, we 
are looking now maybe at 13-1/2 million units, and that is good 
for the industry, but we need to keep the affordability of the 
vehicles, the affordability has to be there, or we will not 
accomplish our fuel efficiency goals or our safety goals.
    So it is a big concern, and as we go through it, we work 
with our member companies and we work with the regulators to 
make sure that we get the best value for the buck.
    Mrs. Blackburn. Thank you, and I only have 27 seconds left, 
but at this time, Mr. Butterfield, I am going to yield to you 
for questions.
    Mr. Butterfield. Thank you.
    Motorcoach ridership is up, and yet motorcoaches are not 
being held to the same safety standards as passenger vehicles. 
H.R. 7 does not require bus manufacturers to comply with key 
safety requirements for 6 years after enactment, and operators 
are not required to fully adopt the new buses for 18 years.
    Ms. Claybrook, is that correct or incorrect?
    Ms. Claybrook. That is correct. The 18-year provision is 
for retroactivity. The 6 years is for the new buses.
    Mr. Butterfield. And what is your take on all of this?
    Ms. Claybrook. Well, my take is that the National 
Transportation Safety Board for 40 years has been telling both 
the Department of Transportation and the bus industry to 
improve their bus safety, and very, very little has ever 
happened. And I don't think it is going to happen unless you 
have these mandates.
    The compromise that the consumer groups and the families of 
the victims had with the--in the Senate bill were very 
reasonable. It was signed off on by the Greyhound Corporation, 
the CEO personally, said it was totally feasible, and we think 
that that, the Senate bill then with that compromise in it is 
perfect and that anything less than that is unfortunate.
    And as I mentioned, the cost of the Senate bill is 10 cents 
per passenger. This is an industry that has huge numbers of 
passenger riders every year. These buses last for 20 years. If 
you fix them up, they are going to provide safety again and 
again and again, day after day after day. And so it is well 
worth the investment.
    Mr. Butterfield. Thank you. All right. Number two. A number 
of provisions in the Senate bill were based on technical 
assistance provide by NHTSA. Administrator Strickland's 
testimony mentioned one such provision, giving NHTSA new 
authority to address hazards caused by vehicles or equipment 
imported by an entity other than the original manufacturer.
    Ms. Gadhia, and I may be mispronouncing that, do you 
believe that it is important for NHTSA to be able to work with 
Homeland Security to take action against imported vehicles or 
vehicle equipment that may be hazardous? What types of 
limitations are we currently facing in ensuring that imported 
goods do not violate consumer protection laws?
    Ms. Gadhia. Yes. I think that is an important addition in 
the Senate legislation. Obviously you have got concerns, and 
consumers would like to know that the vehicles that they are 
driving, whether domestically produced or foreign imports, are 
meeting all the safety requirements. And what I do understand 
also is that in the Senate legislation that particular section 
regarding import safety makes the provision that if a car due 
to be imported is subject to a recall and that recall repair is 
made, that there is no longer any kind of holdup. So we think 
that is an appropriate consumer protection.
    Mr. Butterfield. All right. I am going to yield back.
    Mrs. Blackburn. Mr. Butterfield yields back.
    Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you. Mr. Bainwol, I wanted to ask you 
a question, but let me just first say that I think, I hope all 
of us are happy that the automobile industry is doing well. I 
was one of those proud to support the support for the industry 
and glad to see the industry back on its feet big time.
    At the end of your testimony you said safer but you really 
meant affordable, had to correct yourself. I think consumers 
don't want to have to choose particularly, but you said in your 
testimony, I want to quote, ``As a Nation we can better utilize 
the full benefits of vehicle safety technologies when we get 
vehicle occupants properly restrained and drunk drivers off the 
road while safety belt usage is increasing. Only half the 
vehicle occupants killed in crashes, over half of vehicle 
occupants killed in crashes are not restrained by safety belts 
or child safety seats.''
    And then on page seven of your testimony you state that 
Section 31503 of the Senate bill, which would require a rear 
seatbelt reminder system, should be deleted.
    You know, I find that really contradictory and hypocritical 
frankly. Would you respond?
    Mr. Bainwol. Sure. I would be delighted to. It is true, and 
you can slice the data a number of different ways, but it 
definitely true that of the 32, 33,000 fatalities that a huge 
proportion of those come from either drunk driving or folks who 
are not seat belted or some combination, and so to pin the 
exact number is a little tough because you have both 
causalities.
    So point one is dealing with both of those behavioral 
questions is probably the best thing we can possibly do to 
improve----
    Ms. Schakowsky. OK. I have very limited time. OK. So we 
agree on that.
    Mr. Bainwol. I am trying to be responsive. So the best 
thing we can do is deal with these behavioral problems.
    Ms. Schakowsky. OK.
    Mr. Bainwol. The seatbelt issue to which you refer----
    Ms. Schakowsky. Uh-huh.
    Mr. Bainwol [continuing]. Is an element of that issue, but 
it is really not the same issue. We are talking about latches, 
I believe, that--are you talking about the latches?
    Ms. Schakowsky. No. I am talking about----
    Mr. Bainwol. Rear seatbelt warnings.
    Ms. Schakowsky. Yes.
    Mr. Bainwol. OK. As I understand the rear seatbelt warnings 
are now part of NHTSA's rulemaking plan, one.
    Ms. Schakowsky. Well, Ms. Claybrook, would you comment on 
that?
    Ms. Claybrook. There is no reason if you have belt 
reminders in the front seat not to have them in the backseat. 
In the backseat you have children primarily who are riding. I 
don't understand why the industry is behaving this way.
    In fact----
    Ms. Schakowsky. No, no. You are done. I am asking Ms. 
Claybrook now.
    Ms. Claybrook. In fact, the belt reminders have really 
worked, and we should protect the most precious cargo in the 
vehicle, and that is our children.
    Ms. Schakowsky. Let me ask you another questions. Isn't it 
true that auto industry initially resisted seatbelts 
altogether, airbags, and now use, now market the safety 
vehicles that they produce as something good? So is a market-
driven approach to safety the way to go?
    Ms. Claybrook. No. Well, market only, you mean? No.
    Ms. Schakowsky. Yes.
    Ms. Claybrook. You have to require them because the 
industry has been a reluctant partner in safety forever, and 
when you have the clarity of a statutory requirement, it is 
wonderful for the industry in many ways. They stop fussing and 
fuming, and they get around to doing the engineering. And that 
is what we really want is for them to have a clear mandate that 
gives them a deadline and then they know they have to do it, 
and they stop trying to use their lawyer, and they start using 
their engineers.
    Ms. Schakowsky. All right. Let me get to the latch, and I 
wanted to ask Ms. Gadhia and good luck on your new addition to 
the family.
    Ms. Gadhia. Thank you.
    Ms. Schakowsky. The safety of child-restraint systems has 
come a long way. There is no question, and many parents now use 
the latch system to install car seats, but the latch system 
approved weight limits are lower than the weight limit on many 
car seats that are being installed using latch. The Senate bill 
has provisions suggesting the use of larger car seats and older 
and heavier children using them.
    I wonder if you could speak on the importance of these 
efforts, and do you think that most parents know that their car 
seats may be, may need to be reinstalled as their child ages?
    Ms. Gadhia. The provisions in the Senate bill are 
absolutely critical, and we appreciate that. We appreciate the 
Senate provisions and what they do require NHTSA to do with 
regards to child safety seats.
    What is also critical is making sure that NHTSA is 
exploring a dynamic side impact test with regards to child 
safety seats, but I think you are absolutely right, that 
consumers are not aware with the compatibility of those latch 
anchors, those latch tethers which are so important for safety 
with car seats, and that is something that is partially 
addressed by the Senate bill, but we would also like to see 
NHTSA further address.
    Mrs. Blackburn. I want to thank our witnesses for being 
with us today and to remind our members that there are 10 days 
to submit questions. I know many of us have additional 
questions. I know that some of you have additional comments 
that you would like to submit for the record, so we will have 
that 10 days, but in order to keep from holding you here 
through a new series of votes, we are going to complete our 
work.
    And I am going to ask unanimous consent to include into the 
hearing record the statement of Representative Bill Shuster and 
statements from the following organizations, all of which we 
have shared in advance with the minority: The Rubber 
Manufacturers Association, the Motor and Equipment 
Manufacturers Association, Dorel Juvenile Group, Anchor 
Trailways and Tours, National Automobile Dealers' Association, 
Owner-Operator Independent Drivers Association.
    So ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.078
    
    [GRAPHIC] [TIFF OMITTED] 77607.079
    
    [GRAPHIC] [TIFF OMITTED] 77607.080
    
    [GRAPHIC] [TIFF OMITTED] 77607.081
    
    [GRAPHIC] [TIFF OMITTED] 77607.082
    
    [GRAPHIC] [TIFF OMITTED] 77607.083
    
    [GRAPHIC] [TIFF OMITTED] 77607.084
    
    [GRAPHIC] [TIFF OMITTED] 77607.085
    
    [GRAPHIC] [TIFF OMITTED] 77607.086
    
    [GRAPHIC] [TIFF OMITTED] 77607.087
    
    [GRAPHIC] [TIFF OMITTED] 77607.088
    
    [GRAPHIC] [TIFF OMITTED] 77607.089
    
    [GRAPHIC] [TIFF OMITTED] 77607.090
    
    [GRAPHIC] [TIFF OMITTED] 77607.091
    
    [GRAPHIC] [TIFF OMITTED] 77607.092
    
    [GRAPHIC] [TIFF OMITTED] 77607.093
    
    [GRAPHIC] [TIFF OMITTED] 77607.094
    
    [GRAPHIC] [TIFF OMITTED] 77607.095
    
    [GRAPHIC] [TIFF OMITTED] 77607.096
    
    [GRAPHIC] [TIFF OMITTED] 77607.097
    
    [GRAPHIC] [TIFF OMITTED] 77607.098
    
    [GRAPHIC] [TIFF OMITTED] 77607.099
    
    [GRAPHIC] [TIFF OMITTED] 77607.100
    
    [GRAPHIC] [TIFF OMITTED] 77607.101
    
    [GRAPHIC] [TIFF OMITTED] 77607.102
    
    [GRAPHIC] [TIFF OMITTED] 77607.103
    
    [GRAPHIC] [TIFF OMITTED] 77607.104
    
    [GRAPHIC] [TIFF OMITTED] 77607.105
    
    [GRAPHIC] [TIFF OMITTED] 77607.106
    
    [GRAPHIC] [TIFF OMITTED] 77607.107
    
    [GRAPHIC] [TIFF OMITTED] 77607.108
    
    [GRAPHIC] [TIFF OMITTED] 77607.109
    
    [GRAPHIC] [TIFF OMITTED] 77607.110
    
    [GRAPHIC] [TIFF OMITTED] 77607.111
    
    [GRAPHIC] [TIFF OMITTED] 77607.112
    
    [GRAPHIC] [TIFF OMITTED] 77607.113
    
    [GRAPHIC] [TIFF OMITTED] 77607.114
    
    [GRAPHIC] [TIFF OMITTED] 77607.115
    
    [GRAPHIC] [TIFF OMITTED] 77607.116
    
    [GRAPHIC] [TIFF OMITTED] 77607.117
    
    [GRAPHIC] [TIFF OMITTED] 77607.118
    
    [GRAPHIC] [TIFF OMITTED] 77607.119
    
    [GRAPHIC] [TIFF OMITTED] 77607.120
    
    [GRAPHIC] [TIFF OMITTED] 77607.121
    
    [GRAPHIC] [TIFF OMITTED] 77607.122
    
    [GRAPHIC] [TIFF OMITTED] 77607.123
    
    [GRAPHIC] [TIFF OMITTED] 77607.124
    
    Mrs. Blackburn. We, again, thank you. We look forward to 
continuing a hearing next week. We are going to be looking at 
some of the privacy issues that are in front of us.
    Your patience has been appreciated, and we appreciate the 
information you brought to us.
    Hearing is adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 77607.125
    
    [GRAPHIC] [TIFF OMITTED] 77607.126
    
    [GRAPHIC] [TIFF OMITTED] 77607.127
    
    [GRAPHIC] [TIFF OMITTED] 77607.128
    
    [GRAPHIC] [TIFF OMITTED] 77607.129
    
    [GRAPHIC] [TIFF OMITTED] 77607.130
    
    [GRAPHIC] [TIFF OMITTED] 77607.131
    
    [GRAPHIC] [TIFF OMITTED] 77607.132
    
    [GRAPHIC] [TIFF OMITTED] 77607.133
    
    [GRAPHIC] [TIFF OMITTED] 77607.134
    
    [GRAPHIC] [TIFF OMITTED] 77607.135
    
    [GRAPHIC] [TIFF OMITTED] 77607.136
    
    [GRAPHIC] [TIFF OMITTED] 77607.137
    
    [GRAPHIC] [TIFF OMITTED] 77607.138
    
    [GRAPHIC] [TIFF OMITTED] 77607.139
    
    [GRAPHIC] [TIFF OMITTED] 77607.140
    
    [GRAPHIC] [TIFF OMITTED] 77607.141
    
    [GRAPHIC] [TIFF OMITTED] 77607.142
    
    [GRAPHIC] [TIFF OMITTED] 77607.143
    
    [GRAPHIC] [TIFF OMITTED] 77607.144
    
    [GRAPHIC] [TIFF OMITTED] 77607.145
    
    [GRAPHIC] [TIFF OMITTED] 77607.146
    
    [GRAPHIC] [TIFF OMITTED] 77607.147
    
    [GRAPHIC] [TIFF OMITTED] 77607.148
    
    [GRAPHIC] [TIFF OMITTED] 77607.149
    
    [GRAPHIC] [TIFF OMITTED] 77607.150
    
    [GRAPHIC] [TIFF OMITTED] 77607.151
    
    [GRAPHIC] [TIFF OMITTED] 77607.152
    
    [GRAPHIC] [TIFF OMITTED] 77607.153
    
    [GRAPHIC] [TIFF OMITTED] 77607.154
    
    [GRAPHIC] [TIFF OMITTED] 77607.155
    
    [GRAPHIC] [TIFF OMITTED] 77607.156
    
    [GRAPHIC] [TIFF OMITTED] 77607.157
    
    [GRAPHIC] [TIFF OMITTED] 77607.158
    
    [GRAPHIC] [TIFF OMITTED] 77607.159
    
    [GRAPHIC] [TIFF OMITTED] 77607.160
    
    [GRAPHIC] [TIFF OMITTED] 77607.161
    
    [GRAPHIC] [TIFF OMITTED] 77607.162
    
    [GRAPHIC] [TIFF OMITTED] 77607.163
    
    [GRAPHIC] [TIFF OMITTED] 77607.164
    
    [GRAPHIC] [TIFF OMITTED] 77607.165
    
    [GRAPHIC] [TIFF OMITTED] 77607.166
    
    [GRAPHIC] [TIFF OMITTED] 77607.167
    
    [GRAPHIC] [TIFF OMITTED] 77607.168
    
    [GRAPHIC] [TIFF OMITTED] 77607.169
    
    [GRAPHIC] [TIFF OMITTED] 77607.170
    
    [GRAPHIC] [TIFF OMITTED] 77607.171
    
    [GRAPHIC] [TIFF OMITTED] 77607.172
    
    [GRAPHIC] [TIFF OMITTED] 77607.173
    
    [GRAPHIC] [TIFF OMITTED] 77607.174
    
    [GRAPHIC] [TIFF OMITTED] 77607.175
    
    [GRAPHIC] [TIFF OMITTED] 77607.176
    
    [GRAPHIC] [TIFF OMITTED] 77607.177
    
    [GRAPHIC] [TIFF OMITTED] 77607.178
    
    [GRAPHIC] [TIFF OMITTED] 77607.179
    
    [GRAPHIC] [TIFF OMITTED] 77607.180
    
    [GRAPHIC] [TIFF OMITTED] 77607.181
    
    [GRAPHIC] [TIFF OMITTED] 77607.182
    
    [GRAPHIC] [TIFF OMITTED] 77607.183
    
    [GRAPHIC] [TIFF OMITTED] 77607.184
    
    [GRAPHIC] [TIFF OMITTED] 77607.185
    
    [GRAPHIC] [TIFF OMITTED] 77607.186
    
    [GRAPHIC] [TIFF OMITTED] 77607.187
    
    [GRAPHIC] [TIFF OMITTED] 77607.188
    
    [GRAPHIC] [TIFF OMITTED] 77607.189
    
    [GRAPHIC] [TIFF OMITTED] 77607.190
    

                                 <all>

</pre></body></html>
